Supre

No

3L|-

'6 2021
2£gcgo

IN THE
Supreme Court of the United State
Peter C Benedith
Petitioner,

Cuyahoga County of OH et al
Responder.
On petition for writ of certiorari
To the United States court of appeal
for the ninth circuit

PETITION FOR WRIT OF CERTIOARI
Peter C Benedith
Petitioner-appellant-plaintiff
819 Santee Street Apt 905
i?

Los Angeles Ca 90014
3104830879
netenwe@vahoo.com

u.

JUL 1 3 2021

ii

QUESTION PRESENTED TO THE COURT.
Question presented to the court were factual and by nature of the crime alleged, a
trial was warranted to guarantee public safety.
By nature of the crime, electronic harassment, the guilty will engage in this crime
because it is the one way to commit murder or any crime while staying hidden.
Attempted murder during a trial constitutes an attack on the whole legal System
where this is supposed to be a discussion among civilized men.
Attack on a prose litigant should be treated as an attack of same magnitude as
attacking a lawyer who is preparing for a trial in search of restitution to the wrong
done to someone.
Failure to protect prose litigant during trial constitute a great disadvantage and a
disservice to the legal system.
The interest of the lower court should not be to defend or care about a criminal
organization whose members attempted to kill and will likely try to kill again in a
such a way that makes them feel invisible from the law.
The right to life is absolute and the lower court failed to affirm this.
Death by suicide can be considered murder in some special instances especially
where an active process is involved rather than a passive process.

iii

PARTIES TO THIS PETITION
Petitioner in this Court, plaintiff-appellant Peter C Benedith; was the Plaintiff in
the district court and an appellant before the Ninth Circuit. He may also be referred
BENEDITH or Plaintiff.
Respondents are Cuyahoga County of OH, Department of Medicine at Metro Health
Medical Center Cleveland OH, Metro Health Medical Center Cleveland OH, and
Case Western University Cleveland OH
Respondents are referred to as Defendants or Respondents. They were the
defendants in the District Court and the Appellees in the Ninth Circuit Court.

iv

TABLES OF CONTENT
QUESTION
PRESENTED

l

PARTIES TO THE
PETITION............

11

TABLES OF
AUTHORITIES

iv

PETITION OF A WRIT OF
CERTIORARI......................

1

OPINIONS
BELOW.....

1

JURISDICTION,

1

RULE OF CIVIL PROCEDURE
INVOLVED.................................

1

STATEMENT OF THE
CASE.............................

.2

REASON FOR GRANTING THE
WRIT..............................................

3

The decision of the District Court which was affirm by the Ninth Circuit
court conflicts with facts as documented in the court record.
Fraud in court or appearance of fraud in court is not a good defense even if
the charge is so trivial and would result in a fifty-cent penalty.
The defendants failed to make any defense what will help promote or serve
the interest of justice.
CONCLUSION

3

APPENDIX

4

i

v

TABLE OF AUTHORITY
Statutes
California Penal Code section 664/187
California Penal Code Section 245(A)(1)
18 USC 113
18 USC 1113
18 USC 1117

1
%

PETITION FOR A WRIT OF CERTIORARI
Peter C Benedith respectfully petitions for a writ of certiorari to review the
judgement of the United States Court Appeals for the Ninth Circuit in this case.

OPINION BELOW
The opinion of the Ninth Circuit is attached in appendix. Case Number 2055053
The district court on Jan 7th, 2021, entered an order on case number
19CV9629 which is attached in appendix.

JURISDICTION
The judgement of court of appeal was issued on April 27, 2021. This court has
jurisdiction pursuant to 28USC1254(1)

RULES OF CIVIL PROCEDURE INOLVED
Federal Rule of Civil Procedure Rule 8
(b) Defenses; Admissions and Denials.
(1) In General. In responding to a pleading, a party must:
(A) state in short and plain terms its defenses to each claim asserted against
it; and
(B) admit or deny the allegations asserted against it by an opposing party.
(2) Denials—Responding to the Substance. A denial must fairly respond to the
substance of the allegation.
(3) General and Specific Denials. A party that intends in good faith to deny all the
allegations of a pleading—including the jurisdictional grounds—may do so by a
general denial. A party that does not intend to deny all the allegations must either
specifically deny designated allegations or generally deny all except those
specifically admitted.
(4) Denying Part of an Allegation. A party that intends in good faith to deny only
part of an allegation must admit the part that is true and deny the rest.
(5) Lacking Knowledge or Information. A party that lacks knowledge or information
sufficient to form a belief about the truth of an allegation must so state, and the
statement has the effect of a denial.

2

(6) Effect of Failing to Deny. An allegation—other than one relating to the amount
of damages—is admitted if a responsive pleading is required and the allegation is
not denied. If a responsive pleading is not required, an allegation is considered
denied or avoided.
(d) Pleading to Be Concise and Direct; Alternative Statements; Inconsistency.
(1) In General. Each allegation must be simple, concise, and direct. No technical
form is required.
(2) Alternative Statements of a Claim or Defense. A party may set out 2 or more
statements of a claim or defense alternatively or hypothetically, either in a single
count or defense or in separate ones. If a party makes alternative statements, the
pleading is sufficient if any one of them is sufficient.
(3) Inconsistent Claims or Defenses. A party may state as many separate claims or
defenses as it has, regardless of consistency.
(e) Construing Pleadings. Pleadings must be construed to do justice.

STATEMENT OF THE CASE
On September 2, 2019, the plaintiff filed a lawsuit against Cuyahoga County of
OH, Department of Medicine at Metro Health Medical Center, Metro Health
Medical Center and Case Western Reserve University Cleveland OH for Two
Hundred Billion Dollars. Here was why. In 2012, six months after the defendants
finished his residency (physician training) at that Medical Center where he knew
that he was being discriminated against but did nothing because of what could
happen to him decided to take legal action against these defendants. He went to a
lawyer and explained why he was trying to sue them. This is how their physicians
responded. They went on the attack that span over one year. They first did
intimidation which Benedith ignored and then they hired a killer whose weapon
was direct electronic harassment which the plaintiff does hope that these court and
all courts whose interest is to defend the general public will give him a chance to
prove his case in court because of what it will mean for these criminals.
These defendants hired someone to kill, they almost succeeded, and the plaintiff did
nothing. The plaintiff knows that they got a report of how effective their weapon
was. The plaintiff believes that they knew that their weapon could kill. If these
defendants knew that they have an invisible weapon that could kill and for which
they probably paid a lot of money for, their used of that weapon would be to commit
murder each time they use it. The case was about a hypothetical attempted murder
and hypothetically, someone could go to jail. There is nothing frivolous about
sending someone to prison for a second in the interest of the public. Hypothetical,
the defendants could attack a sitting judge or a jury since they already attacked a

3

prose lawyer believing that they are invisible from the law. They used the same
electronic device again and hence the plaintiff sued them in the district court of Los
Angeles where the crime occurred because they had the motive and opportunity to
have committed that crime.
After the case was filled in court, the defendants filled a motion to dismiss. The
plaintiff responded by asking the court to denial the defendants petition to have the
case thrown out. The defendants were served through their lawyers. Benedith went
to court to file a motion asking the court to denial the defendant’s motion to dismiss.
The clerk of court refused initially to accept the document and stating that it should
be titled notice of motion to denial defense motion to dismiss as opposed to motion
to denial defense motion demise due to court date and scheduling. But when the
plaintiff protested, the clerk decided to accept and reported that he will show it to
the judge. This document is filled with the court and please see appendix 4c and 4d.
The case was dismissed because it was not being opposed.

REASON FOR GRANTING THE WRIT
The case was dismissed without a hearing and the order was that the case
was not being opposed because a motion to denial the motion to dismissed were not
filled. But the court docket showed that this motion was indeed filled with the court.
So, it does appear that the judge might have sided with the plaintiff since the clerk
ended up docketing the opposition to the defendant’s motion. These defendants
committed a crime against humanity and the evidence will show that they hired
someone to obstruct justice for them while making it easier for their lawyers to win.
They are worth over a billion dollars. Why can the case be dismissed because the
case was being not opposed while the idea of the plaintiff being is to oppose these
defendants. Please see appendix 4c and 4d. The plaintiff should not be penalized for
trying to do the right thing and especially if it appears that the court did indeed
sided with him but then why was the case reported not to be opposed. Fraud in
court or the appearance of it is not good defense and cannot be allowed in search of
justice. This case should not have been dismissed.
Moreover, the defendant failed to make any reasonable claim of defense that
promotes the interest of justice. They are required to do so.
The defendant attacked a lawyer by intimidation and harassment since the plaintiff
who was representing himself. We cannot allow this to be a precedent because this
process will propagate. All someone has to do is to do you and then hire someone to
harass and obstruct justice for them.

4

CONCLUSION
The plaintiff is petitioning this court to review this case and grant this writ because
fraud or the appearance of it, is not a good defense in the interest of justice. If a
judge did likely agree with the plaintiff s court filling in opposition of the defense
motion to dismiss, then the case should not be dismissed in the interest justice. A
judge input must be more important than that of a clerk who initially refused to file
the motion submitted be the petitioner.

APPENDIX
District Court
Judgement...................................

5

US Ninth Circuit Judgement—

7

District Court Document docket
sheet.............................................

9

Motion in opposition of defense motion to
dismiss.........................................................

12

